Supreme Court, U.S.
FILED

JUL 2 7 2021
OFFICE OF THE CLERK

No.

ai -m

In The
Supreme Court of the United States

Robert J. Frey,
Petitioner,
v.

Anthony Binford Minter and Harold Blach, Jr.,
Respondents,

On Petition For A Writ of Certiorari
To The United States Court of Appeals
For The Eleventh Circuit

PETITION FOR A WRIT OF CERTIORARI

Robert J. Frey, Pro Se
PO Box 513
Sarasota, Florida 34230
941-400-6456
bobfrey2000@hotmail.com

Si. Iff) f1
U\l

nn

-i

•n r

aj
a try l.“]
i

QUESTION PRESENTED
Whether Petitioner, a natural person,
domiciled in Florida, who suffered injury to his
reputation in Florida from a defamatory multistate
internet communication published in Florida, while
Petitioner was domiciled there, should have his
diversity case decided under Georgia law when
Petitioner’s only connection to Georgia is that he
appeared there to collect a debt.

1

PARTIES TO THE PROCEEDINGS
Petitioner is Robert J. Frey, a resident of Sarasota,
Florida.
Respondents are Anthony Binford Minter, a resident
of Atlanta, Georgia, and Harold Blach, Jr., a resident
of Birmingham, Alabama.
RELATED PROCEEDINGS
United States District Court (M.D. Fla.)
Robert J. Frey v. A. Binford Minter and Harold
Blach, Jr., Case No. 8:17-cv-147-T-30-JSS (May 25,
2017) (voluntary dismissal)
Circuit Court of the Twelfth Judicial Circuit,
Sarasota County, Florida
Robert J. Frey v. Anthony Binford Minter and Harold
Blach, Jr., Case 2017 CA 003351 NC (July 3, 2018)
(removed to U.S. District Court M.D. Fla.)
United States District Court (M.D. Fla.)
Robert J. Frey v. Anthony Binford Minter and Harold
Blach, Jr., Case No. 8:18-cv-01579-EAK-TGW (Sept.
19, 2018) (transferred to M.D. Ga.)
United States District Court (M.D. Ga.)
Robert J. Frey v. Anthony Binford Minter and Harold
Blach, Jr., Case No. 4:18-cv-00191-CDL (Dec. 4,
2018) (judgment that Georgia law applies)
United States Court of Appeals (11th Cir.)
Robert J. Frey v. Anthony Binford Minter, et.al, Case
No. 19-10026-AA (Feb. 28, 2019) (dismissal, non-final
judgment by District Court)
u

United States District Court (M.D. Ga.)
Robert J. Frey v. Anthony Binford Minter and Harold
Black, Jr., Case No. 4:18-CV-00191-CDL (January
24, 2020) (final summary judgment for defendants)
United States Court of Appeals (11th Cir.)
Robert J. Frey u. Anthony Binford Minter AND
Harold Black, Jr., et al, Case No. 20-10331-DD
(October 1, 2020) (opinion affirming decision of
district court) (March 22, 2021) (rehearing denied)

in

TABLE OF CONTENTS
Question presented.......................................................

1

Parties to the proceedings........................................... n
Related Proceedings.....................................................

11

Table of Contents..........................................................

IV

Opinions below..............................................................

1

Jurisdiction..................................................................... 1
Statutory provisions involved..................................... 1
Statement of the case................................................... 1
Reasons for granting the petition..............................

4

I. The Eleventh Circuit has so far departed
from accepted and usual course of judicial
proceedings, and by its opinion, sanctions such
departure by the district court, as to call for an
exercise of this Court’s supervisory powers.......

4

II. The Eleventh Circuit court decision also
conflicts with ten decisions of eight other Circuit
Courts of Appeals in cases where a natural
person, a corporation, or other legal person claims
to have been defamed by an aggregate
communication such as was experienced by
Petitioner in Florida .
16
A. The Tenth Circuit

16

B. The Ninth Circuit

19

C. The Eighth Circuit

21

D. The Seventh Circuit

23

IV

E. The Sixth Circuit

27

F. The Fifth Circuit

30

G. The Fourth Circuit

31

H. The Third Circuit

32

Conclusion....................................................................

34

Appendix A Opinion of the court of appeals
(October 1, 2020).........................................................

la

Appendix B Dismissal by court of appeals
(February 28, 2019).................................................... 12a
Appendix C Order of the district court (ECF 104)
(August 29, 2019)........................................................ 14a
Appendix D Order of the district court (ECF 50)
(December 4, 2018)..................................................... 27a
Appendix E Order denying rehearing
(March 22, 2021)....................................................... 44a
Appendix F Restatement (Second) Conflict of
Laws § 145 and comments....................................... 45a
Appendix G Restatement (Second) Conflict of
Laws, Title B, Particular Torts, Note.................... 52a
Appendix H Restatement (Second) Conflict of
Laws § 150 and comments....................................... 53a

v

TABLE OF AUTHORITIES
Cases:
Anselmi v. The Denver Post, Inc.,
552 F.2d 316 (10th Cir. 1977)........

9, 14, 16

Bishop v. Fla. Specialty Paint Co.,
3

389 So.2d 999 (Fla. 1980)..............

Boardman Petroleum Inc., v. Federated Mut. Ins. Co.,
3

135 F.3d 750 (11th Cir. 1998)
Buckley v. New York Post Corporation,
373 F.2d 175 (2d Cir. 1967)

14, 17

Burton v. Crowell Publishing Co.,
82 F.2d 154 (2d Cir. 1936)

25

Elmore v. Owens-Illinois, Inc.
673 S.W. 2d 434 (Mo. 1984) ..

21

Fuqua Homes, Inc. v. Beattie,
388 F.3d 618 (8th Cir. 2004) ..

14, 21

Grupo Televisa, S.A., v. Telemundo Commons Grp.,
Inc.,
485 F.3d 1233(llth Cir. 2007)..................................

3

Hanley v. Tribune Pub. Co.,
527 F.2d 68 (9th Cir. 1975)

14, 19

Insull v. New York World-Telegram Corporation,
273 F.2d 166 (7th Cir. 1959).....................................

vi

17

Jean v. Dugan,
20 F.3d 255 (7th Cir. 1994)

9, 14, 26

Kamelgard v. Macura,
585 F.3d 334 (7* Cir. 2009)

14, 23

Steinback v. dePasse,

267 F.3d 457 (6* Cir. 2001)

14, 29

Suarez Corp. v. CBS, Inc.,

23 F.3d 408 (6*h Cir. 1994).

14, 27

System Operations, Inc. v. Scientific Games
Development Corp.,
14, 32

555 F.2d 1131 (3d Cir. 1977)
Wells v. Liddy,
186 F.3d 505 (4th Cir. 1999)..

14, 31

Wood v. Hustler Magazine, Inc.,
14, 30

736 F.2d 1084 (5th Cir. 1984)
Statutes:
28 U.S.C. § 1254(1).......... .

1

28 U.S.C. § 1291....................

2

Other authorities:
Restatement (Second) Conflict of Laws (1971)
Section 145

1, 3, 8, 10, 11,15

Restatement (Second) Conflict of Laws (1971)

Vll

Section 145(2)........................................................ 4, 6, 16
Restatement (Second) Conflict of Laws (1971)
3, 6, 8, 11, 13, 14, 23

Section 150

Restatement (Second) Conflict of Laws (1971)
Section 150(2)............................................................

5,7

Restatement (Second) Conflict of Laws, Wrongs,
Topic I, Torts, Title B, Particular Torts................

vm

1,5

OPINIONS BELOW
The opinions below are included in the
appendix: the order of the court of appeals dated
March 22, 2021, denying rehearing, Case 20-10331DD; the opinion of the court of appeals dated October
1, 2020, Case 20-10331-DD; the order of the district
court granting summary judgment (ECF 104) dated
August 29, 2019, Case 4:18-cv-00191-CDL; the
dismissal by the court of appeals dated February 28,
2019, Case 19-10026-AA; the order of the district
court granting defendants’ motion to dismiss and
applying Georgia law (ECF 50) dated December 4,
2018, Case 4:18-cv-00191-CDL.
JURISDICTION
The judgment of the court of appeals was
entered October 1, 2020, with rehearing denied
March 22, 2021. The jurisdiction of this Court is
invoked under 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Under Florida’s conflict-of-laws rules,
Restatement (Second) Conflict of Laws, Section 145
and comments and Section 150 and comments apply.
Pertinent portions of Section 145 and 150 and the
introductory note to Title B, Particular Torts also
apply. All are set forth in appendix F, G, and H.
STATEMENT OF THE CASE
The court of appeals affirmed the district
court’s final summary judgment applying Georgia
law and the district court’s interlocutory judgment
that Georgia law and not Florida law applied to this

1

case. The court of appeals has jurisdiction pursuant
to 28 USC§ 1291.
Petitioner is domiciled in Sarasota, Florida,
where he practices law. App. 33a In February 2015,
Petitioner pro se, e-filed third-party claims in
garnishment proceedings in the Georgia courts
brought by Respondent Blach (“Blach”), the owner of
a 2015 judgment against the same debtor. App. 17a
Petitioner owned a 2010 judgment entitling him to
all funds to satisfy his judgment in full before Blach
would receive any funds on his judgment. App. 16a
Respondent Minter (“Minter”), a Georgia attorney,
represented Blach on a contingency basis. App. 16a
In August 2016, Minter, apoplectic that he and
Blach would have to wait more than three years to
receive any funds on Blach’s inferior judgment,
communicated defamatory statements directed to
Petitioner’s trade and profession as a lawyer, to an
Atlanta based reporter for the Daily Report, an
Atlanta legal organ. App. 17a The statements were
published in the print edition of the newspaper that
is distributed in Georgia, primarily in the Atlanta
area. App. 33a The statements were simultaneously
published on the Daily Report website that was
published in Florida the same day. App. 33a Minter’s
statements identified Petitioner as a Sarasota-based
lawyer. App. 17a
In January 2017, Petitioner filed a diversity
action against Minter and Blach in the Middle
District of Florida claiming defamation per se under
Florida law. The Middle District of Florida ordered
the case transferred to the Middle District of
Georgia. Petitioner dismissed the Middle District of
Florida case and refiled a similar action in the
2

Circuit Court for Sarasota County, Florida where the
Petitioner is domiciled. The case was removed to the
Middle District of Florida. The case was then
transferred to the Middle District of Georgia.1 App.
3a
The district court granted in part
Respondents’ motion to dismiss applying Georgia
law, concluding that Petitioner failed to state a claim
for per se defamation under Georgia law since
Georgia requires proof of special damages. App. 3a
The district court later granted Respondent’s motion
for summary judgment because Petitioner failed to
prove special damages under Georgia law. App. 4a
Petitioner appealed to the Eleventh Circuit.
The court of appeals reviews a choice-of-law
determination de novo and any underlying factual
findings for clear error. Grupo Televisa, S.A., v.
Telemundo Commons Grp., Inc., 485 F.3d 1233, 1239
(11th Cir. 2007) In affirming the district court, the
court of appeals affirmed that there is no dispute
that Florida conflict-of-law rules govern. See
Boardman Petroleum, Inc. v. Federated Mut. Ins. Co.,
135 F.2d 750, 752 (11th Cir. 1998). The court also
affirmed that Florida resolves conflict-of-laws
questions for torts using the significant relationship
test set forth in Restatement (Second) Conflict of
Laws. See Bishop v. Fla. Specialty Paint Co., 389
So.2d, 999, 1001 (Fla. 1980). App. 5a The court also
acknowledged that this case is a multistate
defamation case and that Restatement (Second) of
Conflict of Laws §§ 145 and 150 should determine
the applicable state law to be applied. App. 5a-6a
Neither defendant resides in the Middle District of Georgia.
3

This petition for a writ of certiorari seeks
review of the Eleventh Circuit’s affirmation of the
district court’s finding that Georgia law applies.
REASONS FOR GRANTING THE PETITION
I. The Eleventh Circuit has so far departed
from accepted and usual course of judicial
proceedings, and by its opinion, sanctions such
departure by the district court, as to call for an
exercise of this Court’s supervisory powers.
The court of appeals gravely erred in its
analysis of three of the four contacts [Restatement
(Second) Conflict of Laws § 145(2)] to be taken into
account in applying the principles of § 6 to determine
the law applicable to the issue in this case.
The court acknowledged:
When determining that state that has
the most significant relationship to the
events [occurrence] and the parties, courts
consider “(a) the place where the injury
occurred, (b) the place where the conduct
causing the injury occurred, (c) the domicile,
residence
nationality,
place
of
incorporation and place of business of the
parties, and (d) the place where the
relationship, if any, between the parties is
centered.” App. 5a
Restatement (Second) Conflict of Laws §
145(2) instructs: These contacts are to be evaluated
according to their relative importance with respect to
the particular issue. ” (Emphasis added.) App. 45a
The “particular issue” here is a multistate
defamatory communication.
4

Restatement (Second) of Conflict of Laws §
150(2) provides a general rule and a presumption for
an aggregate defamatory communication involving a
natural person: “When a natural person claims that
he has been defamed by an aggregate
communication, the state of most significant
relationship will usually be the state where the
person was domiciled at the time, if the matter
complained of was published in that state.” App. 53a
The introductory note to Restatement (Second)
Conflict of Laws, Wrongs, Topic I, Torts, Title B,
Particular Torts, instructs “this title deals with
particular torts for which it is possible to state rules
of greater precision than the general principles set
forth in § 145.” App. 52a When considering the four
contacts to be taken into account, the rule of greater
precision relating to a multistate defamation in
Restatement (Second) Conflict of Laws § 150(2)
should be considered.
Applying the presumptive rule [Section 150(2)]
to Petitioner’s case, Florida law clearly applies to this
case. Petitioner is a natural person. Petitioner is
domiciled in Florida. The defamatory matter was
published in Florida. Petitioner was domiciled in
Florida at the time the defamatory matter was
published in Florida. App. 6a
The court tentatively agreed that Florida law
applies, stating: “This section [§ 150(2) and comment
e] would appear at first glance to support the
application of Florida law in this case. Mr. Frey’s
injury occurred in part in Florida where he resides,
and the article was available on the internet.” App.
6a
5

The court considered the four contacts in
Restatement (Second) Conflict of Laws § 145(2) to
determine the state with the most significant
relationship to the occurrence and the parties as
follows:
1. Contact (a), the place where the injury
occurred.
The court agreed that that the place of the
injury, contact (a), weighs in favor of Florida. App. 7a
The court abandoned any consideration that a
greater injury may have occurred in Georgia or
elsewhere.
Restatement (Second) Conflict of Laws § 150,
comment e states:
When there has been publication in two
or
more
states
of an
aggregate
communication claimed to be defamatory, at
least most issues involving the tort should
be determined...by the local law of the state
where the plaintiff has suffered the greatest
injury by reason of his loss of reputation.
This will usually be the state of the
plaintiffs domicile if the matter complained
of has there been published. App. 56a
However, the court states: “Even with that
point (place of injury) going to Mr. Frey (supporting
application of Florida law), the others are a wash or
heavily favor the application of Georgia law.” App. 8a
The court’s analysis of the next three contacts
(place of conduct causing the injury, domicile, and
center of relationship) is seriously flawed. The
analysis totally departs from consideration of the
6

contacts in light of the particular issue in the case, a
multistate defamatory communication. The analysis
also fails to take into account the Restatement
instructions and the rule of greater precision in
Restatement (Second) Conflict of Laws § 150(2). The
analysis also conflicts with decisions of at least eight
United States Courts of Appeals.
2. Contact (b), the place where the conduct
causing the injury occurred.
The court states: “...the conduct causing the
injury, contact (b), occurred in Georgia because the
statements were made in Georgia, by a Georgia
resident and, again, the local newspaper’s circulation
is in Georgia.” App. 8a
The conduct consisted of the statements made
by Respondent Minter to an Atlanta reporter for the
Daily Report in Atlanta, Georgia.
That the statements were made by a “Georgia
resident” seems irrelevant since the statements
would have the same effect if made by a resident of
any other location around the globe.
Likewise, the court’s statement that “the local
newspaper’s principal circulation in Georgia” is of
questionable value in the analysis. The newspaper
circulation in Georgia did not constitute “conduct by
Minter in Georgia” unless, of course, one considers
the circulation to be a continuation or extension of
the original conduct. In either event, the value of this
fact in the analysis is questionable. This is
particularly questionable since this case is based on
the internet publication that was accessed in Florida,

7

where the Petitioner is domiciled and where the
injury occurred.
The court does not specifically conclude that
this contact (conduct) favors Georgia law or Florida
law. This factor may be one of those the court refers
to as “a wash.” App. 8a In either event, if this contact
is considered a wash or if this contact favors Georgia,
then the court’s analysis is clearly erroneous.
Comment e to Section 145 instructs that: “the
place where the defendant’s conduct occurred is of
less significance in situations where, such as in the
case of multistate defamation (see § 150), a potential
defendant might choose to conduct his activities in a
state whose tort rules are favorable to him.” App. 47a
Petitioner wonders if it is mere coincidence
that Respondent Minter being a Georgia lawyer,
domiciled and practicing in Georgia, chose to make
his defamatory statements in Georgia, where the
defamation laws are favorable to him.
Restatement (Second) Conflict of Laws § 150,
comment e, that provides rules of greater precision
regarding multistate defamation, states:
The local law of the state of the plaintiffs
domicile will also usually be applied, even
though some or all of the defamer’s acts of
communication were done in another state,
if there was publication in the state of the
plaintiffs domicile and if the plaintiff is
known only in this state and consequently
his reputation only suffered injury there.
App. 57a

8

Therefore, even though the Respondents’
original conduct occurred in Georgia, this should
weigh in favor of Florida because Florida is where
the internet publication occurred, Petitioner is only
known in Florida, and the injury occurred in Florida.
Additionally, the conduct in Georgia resulted
in a tortious act being committed in Florida. The
Florida court denied Respondents’ motions to dismiss
for of lack of personal jurisdiction over the
nonresident Respondents, finding, under Florida’s
long-arm statute, that Respondents committed a
tortious act (conduct) in Florida. App. 11a, App. 27a.
In Anselmi v. The Denver Post, Inc., (552 F.2d
316 (10th Cir. 1977) the Tenth Circuit court observed
that: “a tort is not only complete at the place where
the allegedly libelous material was published, but
rather can have effects where the plaintiffs who are
allegedly libeled reside.” Id. at 319. See, Jean v.
Dugan, 20 F.3d 255, 262 (7*h Cir. 1994) ("...we
conclude that the "conduct causing the injury” was
not simply the publication of Dugan’s articles, but,
more precisely, their publication in Indiana.
Consequently, we apply Indiana law.”)
Contact (b), place of conduct, causing the
injury should weigh heavily in favor of Florida where
the Petitioner is domiciled, where the defamatory
material was published and where the Petitioner
suffered injury to his reputation.
3. Contact (c), the domicile, residence,
nationality, place of incorporation and
place of business of the parties.

9

The court next addressed contact (c), domicile
and stated:
As to the third factor—the residence of
the parties—Mr. Frey is a Florida resident,
but Mr. Minter resides in Georgia and Mr.
Blach resides in Alabama. This factor is a tie
at best. (Emphasis added) In any event, the
residency factor carries less weight here
because the issues and circumstances of this
case are centered in Georgia. It is also less
important given that Mr. Frey has
demonstrated his willingness and ability to
travel to the Middle District of Georgia, as
he represents clients and has recently
appeared in a case there.2 App. 8a
Comment e to Section 145 provides:
The domicile, residence, nationality,
place of incorporation and place of business
of the parties (emphasis added). These are
all places of enduring relationship to the
parties. The relative importance varies with
the nature of the interest affected. When the
interest affected is a personal one such as a
person’s
interest
in
his
reputation... domicile
(is)
of
greater
importance... These
contacts
are
of
importance in situations where injury
occurs in two or more states. So, the place of
plaintiffs domicile...is the single most
important contact (emphasis added) for
determining that state of the applicable law
as to most issues in situations involving the
2 This is not a venue case.
10

multistate publication of matter that injures
the plaintiffs reputation (see § 150)... App.
48a
Comment f to Section 145 provides: “In
situations involving the multistate publication of
matter that injure the plaintiffs reputation (see §
150)...the place of the plaintiffs domicile...is the
single most important contact (emphasis added) for
determining the state of the applicable law.” App.
51a
Restatement (Second) Conflict of Laws §
150, comment e, that provides rules of greater
precision regarding multistate defamation, states:
Rules of defamation are designed to
protect a person’s interest in his reputation.
When there has been publication in two or
more states of an aggregate communication
claimed to be defamatory, at least most
issues involving the tort should be
determined...by the local law of the state
where the plaintiff has suffered the greatest
injury by reason of his loss of reputation.
This will usually be the state of the
plaintiffs domicile if the matter complained
of has there been published.” App. 56a-57a
Restatement (Second) Conflict of Laws,
Sections 145 and 150 attach great importance to a
plaintiffs domicile in a multistate defamation
matter. However, there appears to be no
corresponding importance attached to the
defendant’s domicile in multistate defamation
matters.

11

Given the facts of this case, it is difficult to
comprehend what interests of the Respondents were
affected in Georgia and Alabama. It is also difficult
to discern how the domiciles of the Respondents in
Georgia and in Alabama equate (or become “a tie at
best”) with the Florida domicile of the Petitioner?
There is no rationale whatsoever from the court
regarding why the Respondents’ domiciles are
important.
The Petitioner’s domicile is important for the
reasons stated in the Restatement. Petitioner is the
only one whose personal interest, his reputation, has
been injured. His injury occurred in Florida and
Florida is his domicile. The evidence also shows the
defamatory material was published in Petitioner’s
domicile. Relative to the domicile of the Petitioner,
the domiciles of the Respondents seem to have little
or no importance in determining the state law
applicable to this matter, accordingly this factor
should weigh heavily in favor of Florida law
The court further erred in attempting to
diminish the importance of the Petitioner’s Florida
domicile by stating: “...because the issues and
circumstances of the case are centered in Georgia.”
App.8a
This seems to be a reference to the court’s
erroneous conclusions in attempting to explain
Petitioner’s non-existent greatest injury in Georgia
under the paradigm in comment e. App. 7a
Restatement (Second) Conflict of Laws §
150, comment e, that provides rules of greater
precision regarding multistate defamation states:

12

A state, which is not the state of the
plaintiffs domicile, may be that of most
significant relationship if it is the state
where the defamatory communication
caused plaintiff the greatest injury to his
reputation. (Emphasis added) This may be
so, for example, in situations where (a) the
plaintiff is better known in this state than
in the state of domicile, or (b) the matter
claimed to be defamatory related to an
activity of the plaintiff that is principally
located in that state, or (c) the plaintiff
suffered greater special damages in this
state than in the state of his domicile or (d)
the place of principal circulation of the
matter claimed defamatory was in this
state. App. 57a
The example (b)3 cited by the court “...because
the issues and circumstances of the case are centered
in Georgia” App. 8a, would seem relevant only to
explain why the plaintiff may have suffered the
greatest injury to his reputation in that other state.
The activities in the other state, without the
associated “greatest injury” would appear to be
meaningless.
Domicile is a highly determinative factor in
multistate defamation cases generally because the
reputation of a plaintiff and the injury to reputation
is associated with the plaintiffs domicile.4 Numerous
3 The court refers to these four examples as (1), (2), (3), and (4).
4 Restatement (Second) Conflict of Laws § 150, comment f
states: “What is said in Comment e about multistate
communications involving natural persons is in general
applicable to corporations and other legal persons.”
13

United States Circuit Courts of Appeals have decided
the law applicable to multistate defamation cases
based largely on the factor of domicile since it is the
most important factor to consider according to the
Restatement. See Anselmi v. The Denver Post, Inc.,
(552 F.2d 316 (10th Cir. 1977); Buckley v. New York
Post Corporation, 373 F.2d 175 (2d Cir. 1967);
Hartley v. Tribune Pub. Co., 527 F.2d 68 (9th Cir.
1975); Fuqua Homes, Inc. v. Beattie, 388 F.3d 618 (8th
Cir. 2004); Kamelgard v. Macura, 585 F.3d 334 (7th
Cir. 2009); Jean v. Dugan, 20 F.3d 255 (7th Cir.
1994); Suarez Corp. v. CBS, Inc., 23 F.3d 408 (6th Cir.
1994); Steinback v. dePasse, 267 F.3d 457 (6th Cir.
2001); Wood v. Hustler Magazine, Inc., 736 F.2d 1084
(5th Cir. 1984); Wells v. Liddy, 186 F.3d 505 (4th Cir.
1999); System Operations, Inc. v. Scientific Games
Development Corp., 555 F.2d 1131 (3d Cir. 1977)
For the reasons stated above, contact (c),
domicile, should weigh heavily in favor of Florida
law.
4. Contact (d), the place where the
relationship, if any, between the parties is
centered.
The court determined: “The fourth factor
weighs heavily in favor of Georgia law because the
parties’ relationship is centered around the litigation
that took place in Georgia.” App. 8a This is
erroneous.
Petitioner disputes that any relationship
exists among the parties. Petitioner entered the
litigation pro se as an innocent third-party claimant
trying to collect a just debt. He was neither a
plaintiff nor a defendant in the garnishment cases.
14

His only interest was to collect a superior judgment.
A “relationship,” if any, resulting from a forced
engagement with an extremely hostile and unbridled
opposition seems to Petitioner to be no relationship
at all.
Comment e to Section 145 provides:
...when a plaintiff is injured while
traveling on a train or riding as a guest
passenger in an automobile, the state where
his relationship to the railroad or to the
driver of the automobile is centered may be
the state of the applicable law. This is
particularly likely to be the case if other
important contacts, such as place of injury or
place of conduct or domicile...are also
located in the state. (Emphasis added) App.
48a
As the Restatement instructs for all torts,
including this case of multistate defamation, the
place where the relationship, if any, between the
parties exists is of little significance if that same
place does not also include the place of conduct, the
place of injury or the place of domicile.
It has been shown that the place of conduct,
the place of injury and domicile are all solidly
connected to Florida, not Georgia. Therefore, as
indicated by Restatement § 145, comment e, even if
the relationship, if any, may have been centered in
Georgia merely as a result of the garnishment
litigation, there are no other important contacts
associated with Georgia to give any weight to this
factor. This factor clearly weighs in favor of Florida.

15

It is clear that the court erred in its analysis of
three of the four contacts in Restatement (Second) of
Conflict of Laws § 145(2) and in concluding that
Georgia law applies to this multistate defamation
case. Florida law should be applied to this case.
The court’s errors resulted in the affirmation
of Georgia law being applied to this case rather than
Florida law. These errors were determinative of the
Petitioner’s case that resulted in summary judgment
in favor of Respondents under Georgia law. This case
should be remanded with directions for a trial under
Florida law.
II. The Eleventh Circuit court decision also
conflicts with ten decisions of eight other
Circuit Courts of Appeals in cases where a
natural person, a corporation, or other legal
person claims to have been defamed by an
aggregate communication such as was
experienced by Petitioner in Florida.
The court’s finding that place of conduct,
domicile and relationship of the parties favors
Georgia law is erroneous. It is also erroneous that
these factors outweigh Petitioner’s place of injury
and domicile. This is demonstrated by the decisions
in the following Circuit court cases.
A. The Tenth Circuit
Case: Anselmi v. The Denver Post, Inc.,
552 F.2d 316 (10* Cir. 1977), Certiorari
denied 97 S. Ct. 2960 (1977)
The Wyoming district court dismissed the case
for want of jurisdiction under Wyoming’s long-arm
statute.
16

The Wyoming plaintiffs filed this multistate
defamation case under Wyoming law based on print
publications from California and national news
services UPI and AP. The plaintiffs were domiciled in
Wyoming and claimed injury was sustained there.
The Tenth Circuit found that the district
court’s application of the single publication rule
expressed in Insull v. New York World-Telegram
Corporation, 273 F.2d 166 (7th Cir. 1959), cert,
denied, 362 U.S. 942 (1960) was error. The district
court held the publication act was complete in
California were the original publication occurred,
thereby nullifying application of the Wyoming longarm statute that required a tortious act within the
state.
The Tenth Circuit found the tort is not
complete where originally published but can have
effects where the plaintiffs reside in Wyoming. Id. at
319-320.
Reviewing Buckley v. New York Post
Corporation, 373 F.2d 175 (2d Cir. 1967) the Tenth
Circuit concurs that Buckley rejects the single
publication rule that precludes jurisdiction to only
where a paper is published and distributed.
Buckley’s state court action, that was moved to the
district court in Connecticut, was based on the
Connecticut long-arm statute similar to the Wyoming
provision. Id. at 320.
Buckley rejected the idea of limiting the place
where a plaintiff can bring suit due to the numerous
inconveniences placed upon a plaintiff in another
jurisdiction.

17

The Tenth Circuit referred to the Restatement
(Second) Conflict of laws, Section 150 as having
corrected the mistake that was made following the
“last event” doctrine in the Insull decision that was
rejected in Buckley. The court stated:
Section 150 declares that rights and
liabilities from defamatory material are
determined by the local law of the state
which has the most significant relationship
to the occurrence, and subsection (2)
declares that a significant relationship
exists in the state where the party was
domiciled at the time the matter complained
of was published in that state. Comment (e)
of this section provides that when there has
been a publication in two or more states of
an aggregate publication claimed to be
defamatory, at least most issues involving
the tort should be determined by the local
law of the state where the plaintiff has
suffered the greatest injury by reason of his
loss of reputation and that this will usually
be the state of the plaintiffs domicile. Id. at
321
Referring to the Restatement, the court
stated:
These expressions are entirely in accord
with the ruling of the Second Circuit in
Buckley. They make it clear that the
publication is not so complete at the place of
first publication as to not allow an action
elsewhere in a situation such as this where
the plaintiff is unknown at the place of first
18

publication and has a reputation only in his
home state. Id. at 322.
The court found that under the Wyoming
long-arm statute the publication in Wyoming
did grant jurisdiction over the defendant for a
tortious act committed in Wyoming. The court
found there were minimum contacts sufficient to
grant jurisdiction. The court reversed the
dismissal by the district court and remanded
with directions to reinstate the claim.
Anselmi demonstrates that the place of
greatest injury and domicile are of paramount
importance in determining the law that is to be
applied to issues arising in a multistate defamation
matter.
B. The Ninth Circuit
Case 1: Hartley v. Tribune Pub. Co.,
527 F.2d 68 (9* Cir. 1975)
The district court dismissed the case for
failure to state a claim.
Plaintiff, domiciled in Nevada, filed an action
against defendant, a California corporation, for
publication of multistate defamation in a newspaper
sold and distributed in California and Nevada.
The district court determined that the Nevada
conflict of laws rule would follow the Restatement
(Second), Conflict of Laws § 379e (Tentative Draft
No. 9, 1964) and that California law would apply.
The court of appeals agreed. The court of appeals
also noted that this Restatement section had been
replaced by Restatement of the Law (Second),
Conflict of Laws § 150 (1971) n. 6.
19

The Ninth Circuit concluded that in
defamation cases the Restatement (Second) Conflict
of Laws § 145 factors normally would call for
application of the law of the plaintiffs domicile.
“Ordinarily, it is there, if anywhere, that plaintiff can
be said to enjoy reputation; and there, if anywhere,
that reputation would suffer injury by the accused
writing.” Id. at 70.
The court disagreed with the district court
decision in that the district court gave substantial
weight to the fact that the place of incorporation,
business and publication were in California and that
by so doing it undermined the generally accepted
premise that the state where the injury was suffered is
a more appropriate choice of law. (Emphasis added)
Id.
The court referred to comment e that
specifically states that:
Rules of defamation are designed to
protect a person’s interest in his reputation.
When there has been publication in two or
more states of an aggregate communication
claimed to be defamatory, at least most issues
involving the tort should be determined...by
the local law of the state where the plaintiff
has suffered the greatest injury by reason of
his loss of reputation. This will usually be the
state of the plaintiffs domicile if the matter
complained of has there been published. Id.
Hanley demonstrates that place of injury,
where the interest affected is a personal one such as
reputation, and domicile outweigh place of conduct
(California) and place of domicile [incorporation and
20

place of business] of the defendant (California) in
deciding the applicable law.
C. The Eighth Circuit
Case: Fuqua Homes, Inc. v. Beattie,
388 F.3d 618 (8* Cir. 2004)
Fuqua Homes, Inc., with its principal place of
business in Missouri, filed a diversity action in
Missouri district court claiming damages to its
business reputation due to multistate
communications from defendants’ website and
multiple print communications in Iowa where the
defendants are domiciled.
The district court applied Missouri law and
entered judgment in favor of the defendants because
Fuqua failed to prove actual damages as required
under Missouri law. Fuqua contended that Iowa law
should be applied where a defendant need not prove
actual damages.
The Eighth Circuit court, referring to the
Missouri Supreme Court’s decision in Elmore v.
Owens-Illinois, Inc., 673 S.W.2d 434 (Mo. 1984),
found in this multistate defamation case that the
most important consideration in choosing the
applicable law is the residence (domicile) of the party
defamed. Id. at 622.
This is because defamation produces a special
kind of injury that has its principal effect among
one’s friends, acquaintances, neighbors, and business
associates in the place of one’s residence. Id.
The court stated:

21

In reaching its conclusion, the court in
Elmore cited the Restatement (Second) of
Conflict of Laws § 150 (1971), which in
essence creates a presumption (emphasis
added) that when a corporation brings a
defamation suit arising from an aggregate
communication, the state with the most
significant relationship will be the state of
the corporation’s principal place of business.
Id.
The court further stated:
The law of defamation, as applied to a
business, exists to protect the business’s
interest in its reputation. Section 150 of the
Restatement
recognizes
that
when
defamatory material is published in two or
more states, the state where the defamed
party has its principal place of business will
usually be the state in which its reputation
is most grievously affected, so long as the
defamatory material is published in that
state. See id. cmts. e, f. Although not
squarely addressed by the Restatement or
the Missouri case law, the publication of
defamatory material via the internet is
closely analogous to the methods of
aggregate communication listed in § 150.
We therefore conclude that Missouri would
adhere to the presumption created in § 150
in cases where defamatory material is
published on an internet website. Id.
The court found that the application of
Missouri law would be improper only if other
considerations listed in § 145 [the four factors] were
22

sufficiently significant to overcome the presumption
of § 150. They are not. Id.
Fuqua demonstrates the importance of place of
business in determining the applicable law in a
multistate defamation case. Place of business and
place of incorporation are analogous to domicile
when a natural person is injured. Comment f to § 150
provides: “What is said in Comment e about
multistate communications involving natural
persons is in general applicable to corporations and
other legal persons.” App. 58a
D. The Seventh Circuit
Case 1: Kamelgard v. Macura,
585 F.3d 334 (7th Cir. 2009)
Plaintiff Kamelgard, domiciled in New Jersey,
testified in a medical malpractice case in New York
against Macura who is domiciled in New York.
Macura retaliated and sent a defamatory letter to a
medical association in Chicago and a nearly identical
letter on the same day to a medical association in
Florida.
The Seventh Circuit court was confronted with
an unusual circumstance where the plaintiff filed an
action in Illinois based on the letter from the New
York defendant that was sent to the medical
association in Chicago. The plaintiff could not
produce the letter and did not use available
compulsory process in any attempt to do so. Plaintiff
was aware of the Chicago letter due to a
communication from the Chicago medical association
advising him of a complaint from the New York
defendant.
23

The similar letter mailed to Florida by the
defendant could have resulted in a claim, but that
claim was abandoned by the plaintiff.
The defendant argued that New Jersey law
applied to the case and that under New Jersey law
the defamation action was time-barred.
Applying Restatement (Second) Conflict of
Laws the court sought the state with the most
significant relationship to the claim. Addressing
defamation claims the court stated:
Defamation, however, is a tort that the
old rule [the state in which the tort (and
therefore the injury) occurred], now a
presumption, very often doesn’t fit, because
often the defamatory statement is
communicated in more than one state.
There is also ambiguity concerning injury
caused by defamation-does it occur just
where the plaintiff incurs some tangible
harm such as loss of income, or where his
reputation is impaired, and if the latter does
he have a reputation in a state in which the
statement is communicated even if no one
there has ever heard of him? Id. at 341
When the defamatory statement is
communicated in many different states it
makes sense to apply the law of the
plaintiffs domicile, and that is the usual
result in Illinois. Id. at 342.
That is where the principal injury from a
defamation will occur because it is where
the victim works and lives and where (in the
24

usual case) most of the people-family,
friends, business associates, etc.-are found
with whom he has personal or commercial
transactions, which might be impaired by
defamation. Id.
The court went on to find that even though no
publication occurred in New Jersey that the absence
of publication should not be an absolute bar to the
application of New Jersey law, the plaintiffs
domicile.
Referring to J. Learned Hand’s analysis in
Burton v. Crowell Publishing Co., 82 F.2d 154 (2d
Cir. 1936) the court considered:
that the state of the plaintiffs domicile
would still be the primary site of the
plaintiffs injury, implying that its law
would govern, even if the defamation had
been communicated entirely to people in
other states and no one in the plaintiffs
state-besides the plaintiff-was even aware of
it. Id.
The court concluded that New Jersey, where
the plaintiff has his practice and is therefore likely to
suffer tangible harm from defamation that impugns
his professional integrity and competence, even if the
defamation is not published there (emphasis added),
has a substantial interest in protecting him from
defamation; and it is therefore New Jersey law that
should apply. Id. at 344.
Kamelgard demonstrates the significant
weight that the court gave to place of injury and

25

domicile even though there may have been no
publication there.
Case 2: Jean v. Dugan,
20 F.3d 255 (7th Cir. 1994)
Jean, an Indiana resident, alleged he was
defamed by Dugan a resident of Illinois. Both parties
were union officials of a union covering Indiana and
parts of Illinois and Iowa with its headquarters in
Illinois. Dugan’s alleged defamation was
communicated through a union publication
distributed in the three states.
The district court, based in Indiana, applied
the Indiana choice of law rules pursuant to the
Indiana Supreme Court’s adoption of the “most
significant contacts” approach.
In finding that Indiana law applied to the
case, the Seventh Circuit court stated:
As the district court found, Jean lived and
primarily worked in Indiana; hence, the
relevant community in which the alleged
injury to his reputation occurred also was in
Indiana. Following from this, we conclude
that the “conduct causing the injury” was
not simply publication of Dugan’s articles,
but more precisely, their publication in
Indiana. Consequently, we apply Indiana
defamation law. Id. at 262.
Jean confirms the important weight that
should be given to the domicile and place of injury in
the multistate defamation context. Jean also
confirms that “conduct” causing the injury not only
26

occurs from where the publication emanates but also
where it is published, especially when it is published
in the plaintiffs domicile.
E. The Sixth Circuit
Case 1: Suarez Corp. v. CBS, Inc.,
23 F.3d 408 (6* Cir. 1994)
Plaintiff, Suarez Corp., incorporated in and
doing business in Ohio, filed a diversity action in the
Ohio district court against CBS, Inc. and others for
defamation and false light invasion of privacy. The
district court dismissed for failure to state a claim.
The Sixth Circuit court agreed with the
district court that applied Ohio’s conflict of laws
rules as set forth in Restatement (Second) of Conflict
of Laws to the plaintiffs defamation and false light
invasion of privacy claims. “Under section 145 of the
Restatement, Ohio’s relationship to the lawsuit is the
most significant. Plaintiff is incorporated in Ohio and
Ohio is its principal place of business.” Id. at 417.
Since Ohio courts had refused to recognize the
tort of false light invasion of privacy the Sixth
Circuit court affirmed the district court’s dismissal of
this claim. The court reversed and remanded the
defamation claim.
The Sixth Circuit court included a footnote 7
to this case:
The Restatement has also established
choice of law rules with regard to particular
torts. Under Restatement (Second) of
Conflict of Laws Sec. 153, Multistate
Invasion of Privacy, [t]he rights and
27

liabilities that arise from matter that
invades a plaintiffs right to privacy and is
contained in any one edition of a book or
newspaper, or any one broadcast over radio
or television, exhibition or a motion picture,
or similar aggregate communication are
determined by the local law of the state
which, with respect to the particular issue,
has the most significant relationship to the
occurrence and the parties under the
principles stated in Sec. 6. This will usually
be the state where the plaintiff was
domiciled at the time the matter complained
of was published in the state.
According to Restatement (Second) of
Conflict of Laws Sec. 153, cmt. e, “[wjhether
a corporation has a right of action for a
multistate invasion of its right of privacy
would presumably be determined by the
same law that would have controlled if the
case had involved multistate defamation.
(See Sec. 150(3)). The existence of any such
right of action in a corporation is not clearly
established.”
Restatement (Second) of Conflict of Laws
Sec. 150(3) states, “[w]hen a corporation, or
other legal person, claims it has been
defamed by an aggregate communication,
the state of the most significant relationship
will usually be the state where the
corporation, or other legal person, had its
principal place of business at the time, if the
matter complained of was published in that
state.”
28

Restatement (Second) of Conflict of Laws
Sec. 150, Comment f. states: “What is said
in
Comment
e
about
multistate
communications involving natural persons
is in general applicable to corporations and
other legal persons.”
Suarez supports the presumption that the
place of business [domicile when a natural person is
defamed] is an important factor that should be given
great weight in determining the proper law to apply
to a multistate defamation claim.
Case 2: Steinback u. dePasse,
267 F.3d 457 (6th Cir. 2001)
The Sixth Circuit court addressed Earline
Ruffin’s claim of multistate defamation that was
brought by her personal representative in the district
court in Michigan.
The district court found Mississippi law
applied to this defamation claim noting that
Restatement (Second) of Conflict of Laws suggested
that in multistate defamation cases the law of the
plaintiffs domicile will ordinarily be the state of the
greatest interest in having its law applied.
The Sixth Circuit agreed that even though the
case was brought in Michigan, since the defamation
arose out of a nationwide broadcast, Michigan had no
contacts or an interest in having its law applied. The
court agreed with the defendants that Mississippi,
the state of Earline Ruffin’s domicile, was the only
state with an interest in the defamation claim.
However, since Mississippi did not recognize a

29

defamation claim after the death of the plaintiff, the
district court’s dismissal was proper.
Steinback demonstrates that even the domicile
of a deceased person is an important factor in
determining the law that is to be applied to a
multistate defamation matter because that is where
the person’s reputation prevails.
F. The Fifth Circuit
Case: Wood v. Hustler Magazine, Inc., 736
F.2d 1084 (5th Cir. 1984)
The plaintiffs, domiciled in Texas, filed suit in
the district court in Texas against Hustler, a
company incorporated and doing business in
California, for invasion of privacy because of
photographs published nationwide. The district court
awarded damages to the plaintiffs and Hustler
appealed claiming California law applied to the case.
The Fifth Circuit court agreed that under the
“most significant relationship” test of the
Restatement (Second) Conflict of Laws (1969),
adopted by the Texas Supreme Court in 1979, that
the district court properly decided to apply Texas law
to this case. Id. at 1087.
The district court found that Texas contacts
predominated, the injury occurred in Texas, the
relationship grew out of Texas, the plaintiffs were
domiciled in Texas. “In situations involving the
multistate publication of matter that...invades his
right of privacy (see Sec. 153), the place of the
plaintiffs domicile...is the single most important
contact for determining the state of the applicable
law.” The court did not find the defendant’s place of
30

business or the place of the conduct in California
outweighed the Texas contacts and that therefore
Texas was the state with the most significant
relationship to the litigation. Id.
Wood demonstrates the significance of the
plaintiffs domicile and place of injury in a multistate
publication case for invasion of privacy or
defamation.
G. The Fourth Circuit
Case: Wells v. Liddy,
186 F.3d 505 (4th Cir. 1999)
The Fourth Circuit court considered multiple
claims of defamation by the plaintiff Wells in the
Maryland district court. Only two claims involve the
Restatement (Second) of Conflict of Laws; the Don
and Mike national radio broadcast and the Accuracy
in Media website claims.
The court applied Restatement Section 150(2)
that provides for the general presumption that the
state of the most significant relationship to a
multistate defamation will be the state where the
plaintiff was domiciled at the time if the matter was
published there.
The court found that Wells agreed the Don
and Mike show was broadcast nationwide and that it
was also broadcast in Louisiana. The court concluded
that therefore Louisiana law applied. The summary
judgment in favor of defendant Liddy on this issue
was affirmed because the plaintiff could not prove
any of the alleged statements were defamatory. Id. at
527.

31

Likewise, the court found that Louisiana law
applied to Well’s claim of defamation with respect to
the Accuracy in Media website. Summary judgment
in favor of defendant Liddy was affirmed because
Wells could not attribute any defamatory statements
to Liddy. Id. at 530.
Wells demonstrates the importance of domicile
and place of injury in a multistate defamation case.
H. The Third Circuit
Case: System Operations, Inc. v. Scientific
Games Development Corp.,
555 F.2d 1131 (3d Cir. 1977)
Plaintiffs, New Jersey corporations with
principal business operations in New Jersey filed a
claim in New Jersey district court against defendants
located in Michigan and Georgia.
The district court issued an injunction against
the defendants. The defendants appealed.
The Third Circuit court found that the
threshold issue was the choice of law to be applied to
the case. The threshold issue was not addressed by
the district court resulting in the district court
applying law of other jurisdictions with no
relationship to the case or the parties.
The court determined that the matter before it
was a product disparagement case and that New
Jersey choice-of-law rules should have been applied
by the district court.
The court stated:

32

Bearing in mind the close relationship
between defamation and disparagement,
see e.g., Restatement (Second) of Conflict
of Laws § 151 (1973), we are convinced
that New Jersey courts would also resolve
the choice-of-law problem in a product
disparagement case by identifying and
weighing the interest of each state in
having its own product disparagement law
applied. Id. at 1137
After eliminating consideration of the interests
of several other states the court stated: “Both plaintiff
corporations...maintain their principal places of
business in New Jersey and application of New Jersey
law would further New Jersey economic and social
policies affecting the operations of New Jersey
companies.”
The court found that the choice-of-law rules for
injurious falsehood the same as those involving
defamation and stated:
In the case of aggregate communications,
section 150(1) provides that “the local law of
the state which, with respect to the
particular issue, has the most significant
relationship”
applies.
Section
150(3)
contains a clarification very pertinent to the
issue here under discussion: When a
corporation... claims that it has been
defamed by an aggregate communication,
the state of the most significant relationship
will usually be the state where the
corporation...had its principal place of
business at the time if the matter
33

complained of was published in that state.
Id. at 1138.
In deciding that New Jersey law applies, the
court went on to say: “Our decision, like the rule of
section 150 furthers the choice-of-law values of
certainty, predictability, and uniformity of result and
of ease of determination and application of the
applicable law.” Id. at 1139
In Systems Operations, Inc., another circuit
court found that the weight of the place of injury and
place of principal place of business [domicile when a
natural person is involved] are significant factors in
determining the law to be applied to a multistate
injurious falsehood or defamation matter.
CONCLUSION
This petition for writ of certiorari should be
granted.
Respectfully submitted.
Robert J. Frey, Pro Se
P.O, Box 513
Sarasota, FL 34230
941-400-6456
bobfrey2050@hotmail.com
July 2021

34

